                                                                                                                       G   P   O   ’   S



                                                                 Ask The CIO




WASh GPO’s Chief Information Officer




ure that digital documents remain accessible to the public as formats
change?
 es over time exposes a number of challenges — particularly finding a way to
                                                                                              G P O ’s F e d e r a
 dia and converting files to make them usable in today’s and future applications.
obably eternal — challenge is the rapidly evolving and changing world of
                                                                                                 New system will make
 ats.
cesses come in three forms: refresh, migration, and emulation. Refresh is the                    As a GPO customer, you interact with u
 ding a file, verifying that it is still readable and then re-writing it. Migration is           n	 Creating   digital documents for GPO
d formats to a new format — for example, moving Office 2003 documents to
                                                                                                 n	 Tracking   those documents through
on is a bit more abstract — creating an operating environment similar to the
                                                                                                 n	 Providing   public access to many of
 ted when the file was created. An example of this would be emulating an early
ating environment to read WordStar documents.                                                    Currently, you use a variety of methods
use a mix of these methods depending on the file type and circumstances.                         jobs and find the information you need.
n will probably be used most often. •


                                                                                                 What is FDsys?
                                                                                                 FDsys is an advanced digital content m
                                                                                                 system that will enable GPO to manage
                                                                                                 Government documents. Some of the m
                                 Mike Wash Chief Information Officer                             functions include:
                                 Scott Stovall Director of Programs and Technology
                                                                                                 n	 Publishingdocuments — The U.S. C
                                    Brenda Washington Administrative Support
                                                                                                   and other agencies will be able to s
                                 Communications
                                    Carrie Gibb Program Communications
                                                                                                   and orders electronically to GPO for
                                    Moira Shea Program Communications                              electronic distribution, and inclusion
                                 Technology
                                                                                                   Federal Depository Library Program
                                    Deng Wu Lead Innovation Specialist                           n	 Searching    for information — Federa
                          United George
                                  StatesBarnum
                                          Government        Printing
                                               Content System Manager Office | Office of Inspector General
                                                                                                information will reach a wider audie


                          Semiannual Report
                                 Kirk Knoll PMO Associate Director                                 providing authentic, published Gove
                                    Matt Landgraf Lead Program Planner
                                                                                                   information to the public;
                                    Adam Schwartz Program Planner



                          to Congress
                                    Magan Mohrmann Program Planner                               n	 Preserving information — The prese
                                 Gil Baldwin PMO Associate Director                                function of FDsys will ensure public
                                     Kate Zwaard Program Planner                                   information even as technology cha
                                     Elizabeth Pruszko Program Planner
                          April 1, 2008 through September 30, 2008
                                 Selene Dalecky PMO Associate Director
                                    Lisa LaPlant Lead Program Planner
                                    Kirk Petri Program Planner
                                    Blake Edwards Program Planner

                                 Contact Information pmo@gpo.gov
                                 http://www.gpo.gov/projects/fdsys.htm
                                 202.512.1080
The U.S. Government Printing Office                             The Office of Inspector General

For well over a century, the U.S. Government Printing           The Office of Inspector General (OIG) was created by the
Office (GPO) has been fulfilling the needs of the Federal       GPO Inspector General Act of 1988—Title II of Public Law
Government for information products and distributing those      100-504 (October 18, 1988) (GPO IG Act). The GPO OIG
products to the public. GPO is the Federal Government’s         provides leadership and coordination as well as evaluates
primary resource for gathering, cataloging, producing,          GPO’s internal control structure. It recommends policies,
providing, authenticating, and preserving published U.S.        processes, and procedures that help prevent and detect
Government information in all its forms. GPO also produces      fraud, waste, abuse, and mismanagement. The OIG also
and distributes information products and services for each      recommends policies that promote economy, efficiency,
of the three branches of Government.                            and effectiveness in GPO programs and operations. It
     Under the Federal Depository Library Program, GPO          is dedicated to acting as an agent of positive change—
distributes a wide range of Government publications in print    changes that will help GPO improve its efficiency and
and online to more than 1,250 public, academic, law, and        effectiveness as the Agency undertakes an era of unprec-
other libraries across the country. In addition to distribut-   edented transformation.
ing publications through that library system, GPO provides           The OIG informs the Public Printer and Congress
access to official Federal Government information through       about problems and deficiencies as well as any positive
public sales and other programs, and—most prominently—          developments relating to GPO’s administration and oper-
by posting more than a quarter of a million titles online       ation. To accomplish these responsibilities, the OIG con-
through GPO Access (www.gpoaccess.gov).                         ducts audits, assessments, investigations, inspections,
     Today about half of all Federal Government documents       and other reviews.
begin as digital products and are published directly to the
Internet. Such an evolution of creating and disseminat-
ing information challenges GPO, but it has met those chal-
lenges by transforming itself from primarily a print format
entity to an agency ready, willing, and able to deliver from
a digital platform a high volume of information to a multi-
tude of customers.
     Although a transition to digital technology changes
the way products and services are created and offered,
GPO strives to continually satisfy the requirements of
Government and accomplish its mission of Keeping
America Informed.




     The OIG is dedicated to acting as an agent of positive
     change—changes that will help GPO improve its efficiency
     and effectiveness as it undertakes its era of unprecedented
     transformation.
Contents

Message from the Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

Highlights of this Semiannual Report .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

OIG Management Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

Executive Council on Integrity and Efficiency .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

Review of Legislation and Regulations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

GPO Management Challenges .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

Office of Audits and Inspections .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
            A.Summary of Audit and Inspection Activity  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
            B. TeamMate Audit Software Implementation .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
            C. External Peer Review  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
            D. Future Digital System (FDSys)—Independent Verification and Validation .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
            E. Oracle Release 2 – Independent Verification and Validation .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 14
            F. Financial Statement Audit Activity .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15
            G. Audit and Inspection Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15
            H. Status of Open Recommendations . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19

Office of Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25
            A. Summary of Investigative Activity .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25
            B. Types of Cases .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25
            C. Status of Action on Referrals . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25
            D. Investigative Accomplishments .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26
            E. Work-In-Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26

Appendices
            A. Glossary and Acronyms .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28–29
            B. Inspector General Act Reporting Requirements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30
            C. Statistical Tables
                         Table C-1: Audit Reports With Questioned and Unsupported Costs . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31
                         Table C-2: Audit Reports With Recommendations for
                                                    Funds That Can Be Put to Better Use .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 32
                         Table C-3: List of Audit and Inspection Reports Issued During
                                                    Reporting Period  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
                         Table C-4: Investigations Case Summary .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34
                         Table C-5: Investigations Productivity Summary . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 36




                                                                                                      Office of Inspector General
                                                                                                                                                  1
Message from the Inspector General




                            T
                                     his Semiannual Report to Congress marks a milestone in the Office of Inspector
                                     General at the GPO. Twenty years ago, the President signed Public Law 100-504,
                                     which included the Government Printing Office Inspector General Act of 1988,
                              thereby establishing a statutory Office of Inspector General at GPO. While the Inspector
                              General Act of 1978 set the ground work for Offices of Inspectors General in Executive
                              Branch agencies, the GPO Inspector General Act established the first statutory Inspector
                              General within the Legislative Branch. It would not be until 2005 before the GPO OIG
                              was joined by another statutory Legislative Branch Inspector General at the Library of
                              Congress. And since then, Congress has added the U.S. Capitol Police, Architect of the
                              Capitol, and the Government Accountability Office.
      During the past twenty years, the GPO OIG has undergone significant change. At one time the GPO OIG had a
staff of more than 50, with an audit group dedicated to financial and compliance work and an investigative unit that
dealt primarily with employee misconduct and contractor issues. As the size of the Agency was reduced, so too has
the number of staff in the OIG. Today, while less than half the size of its peak, the responsibilities of the OIG have
grown dramatically. The Agency’s unprecedented transformation to digital information processing and high-tech
security printing has brought to the OIG new and complex challenges that are met by dedicated auditors, inspectors,
and criminal investigators.
      The complexity of the work is borne out in this semiannual report. Our Office of Audits and Inspections is respon-
sible for the oversight of several contractors facilitating robust independent verification and validation (IV&V) of two
significant GPO programs – the implementation of the Future Digital System (FDsys) and transition of legacy systems
to Oracle integrated business solutions. These IV&V efforts have helped identify risks and vulnerabilities to these pro-
grams so that if corrected, GPO may be assured of greater chance of success upon deployment. The emphasis on infor-
mation technology and security will continue to evolve as do the inherent risks and vulnerabilities of the IT systems at
GPO. To that end, we continued to address efforts to protect the e-Passport Production system, as well as assess GPO’s
Public Key Infrastructure and GPO’s transition planning for Internet Protocol Version 6. Such reviews were beyond
comprehension when the OIG was contemplated twenty years ago.
      The Office of Investigations is also in the midst of upgrading its operations as we move into our 21st year. With the
recent addition of a new Assistant Inspector General for Investigations, planning is underway to develop more complex
contract and procurement fraud cases as well as continue to address matters in technology related crimes, workers’
compensation fraud, and employee misconduct. And while the advance of technology has changed how the agency
does business and the types of criminal and administrative matters our office will confront, there are still those who
live in the past and have failed to embrace fundamental tenets of respect and consideration to fellow employees. During
this reporting period, an investigation by the OI resulted in the indictments of three GPO employees for the physical
abuse of a vulnerable employee. While twenty years ago such activity might have been dismissed as horseplay, in a 21st
century workforce such behavior cannot be tolerated. I applaud the vigorous investigation by our OI which resulted in
these indictments.
      While we reflect upon our progress over the past twenty years, I am encouraged by the strength of character and
commitment of the OIG to look forward to the future and meet the needs of the OIG with a renewed sense of vitality.




                                                                       J. Anthony Ogden
                                                                       INSPECTOR GENERAL
                                                                       U.S. Government Printing Office


                                          Office of Inspector General
                                                            3
Highlights of this                                                 this reporting period, OALC reviewed several audit and
Semiannual Report                                                  investigative reports, assisted OI with several matters that
                                                                   the Department of Justice accepted for civil and crimi-
During this reporting period, the OIG continued direct-            nal prosecution, and oversaw OI operations for 3 months
ing its resources toward those areas of greatest risk within       during the absence of an Assistant Inspector General for
GPO. We provided a variety of services, including program          Investigations.
and financial audits, inspections and assessments of key                In addition, OALC provided legal advice to the U.S.
operations, and investigative activity resulting in criminal       Capitol Police Inspector General in a variety of matters
or administrative actions. We also consulted on a variety          and reviewed and provided comments to an Agency
of Agency issues and provided comments on proposed                 Directive on Workers’ Compensation. OALC also acted on
legislation and regulations. The work of each of the OIG           a variety of matters as the OIG liaison to the GPO General
components is summarized below.                                    Counsel, including support with GPO litigation matters,
      The Office of Audits and Inspections (OAI) issued 7          and the GPO Office of the Chief of Staff. Finally, OALC
reports with a total of 16 recommendations for improving           participated in the Council of Counsels to the Inspector
GPO operations, including strengthening internal controls          General (CCIG). In that role, OALC led a task force for
throughout the Agency, and continued working with man-             developing language for new GPO- produced, secure cre-
agement to close recommendations from earlier reporting            dentials for OIGs throughout the Federal Government.
periods. OAI continued its IV&V work on FDsys and Oracle           OALC also coordinated development, with the GPO Web
E-Business Suite implementation and completed an audit             Development and Creative Services Division, of an infor-
of diversity management programs at GPO in response to             mational Web site for the CCIG.
a congressional request. OAI also completed a follow-up
audit of centrally charged travel expenditures that resulted       OIG Management Initiatives
in identifying approximately $8,495 in erroneous payments
and performed a security audit of the databases that sup-          Personnel Update
port the Passport production systems. Finally, OAI com-            During this period, several changes occurred in OI. Ronald
pleted a WebTrust assessment report of GPO’s Certification         Koch, the Assistant Inspector General for Investigations,
Authority and an assessment on GPO’s transition planning           retired. Several other members of the Investigations team
for Internet Protocol Version 6.                                   left to join other OIGs. As a result, OI welcomed three new
      The Office of Investigations (OI) opened 18 inves-           members in August.
tigative cases, closed 20, and has 22 ongoing investiga-                 We are excited that Debra Miller has joined the OIG OI
tions. During this reporting period, one investigation             as the new Assistant Inspector General for Investigations.
resulted in three criminal indictments, and another case           Debbie has an impressive record in the OIG community.
was accepted for possible criminal prosecution. One                She began her OIG career in 1982 as a Special Agent with
case against a contractor was referred for administra-             the Environmental Protection Agency’s OIG and then later
tive action. In addition, due to its investigative efforts,        moved to NASA’s OIG where she worked on sensitive and
a forfeiture of $226,821.74 in workers’ compensation               complex criminal and civil investigations. One significant
was assessed against an individual who was also taken              achievement at NASA was her work as the lead agent on the
off workers’ compensation rolls. A cost savings to the             investigation of the Hubble Space Telescope primary mir-
Government of $42,000 per year will also be realized               ror flaw. That investigation resulted in a civil settlement of
($420,000 in actuary amount over 10 years).                        $25 million with the mirror manufacturer, at the time the
      The Office of Administration/Legal Counsel (OALC)            largest recovery by the NASA OIG. Most recently, Debbie
provides legal advice and counsel on issues arising dur-           initiated and developed the Social Security Administration
ing audits, inspections, and investigations, including             OIG’s contract fraud investigative program. Debbie grad-
opinions regarding legal accuracy and sufficiency of OIG           uated from Florida State University with a Bachelor of
reports. OALC manages administrative and manage-                   Science in Criminology.
ment issues that the OIG faces as well as congressional                  Elisabeth Heller joined the OI as a Special Agent.
and media relations and information requests. During               Elisabeth comes to us from the Department of Health


                                       Semiannual Report to Congress
                                                               4
and Human Services OIG where she worked as a Special on a quarterly basis. The meetings continue to improve
Agent. Previously, she worked at the Office of Personnel communications and contact between the Legislative
Management as a Special Agent working on personnel secu- Branch IGs. During this reporting period, the Legislative
rity investigations. Elisabeth graduated from George Mason Branch IGs provided comments about legislation to amend
University with a Bachelor of Science in Criminal Justice.                the Inspector General Act of 1978, as amended, (IG Act) in
      Latarsha Isom joined the OIG as a Special Agent. an effort to aid committee staff understanding of distinc-
Latarsha comes to us from the Treasury Department’s tions with Executive Branch IGs.
Bureau of Engraving and Printing, where she worked for                          Legislative Branch IGs also developed a comprehen-
the last 10 years, most recently as an investigator in the sive audit plan and completed a summary report of an audit
Office of Security. Latarsha                                                                               of all legislative branch agency
g raduated f rom Cent ra l                                                                                 diversity offices. The sum-
Connecticut State University                                                                               mary report was produced at
with a Bachelor of Arts in             “Indeed, a conversation about                                       the request of the Chairman
Psychology.                           diversity is not possible unless all                                 of the Subcommittee on
      The OA LC also wel-                                                                                  Federal Workforce, Postal
c ome d a ne w me m b e r.
                                      diverse populations and cultures                                     Service, and the District
Timothy Harbeck became                  that enrich our workforce are                                      of Columbia of the House
the first law clerk to work              included in the discussion.”                                      Committee on Oversight and
for the GPO OIG helping on                                                                                 Government Reform, and pre-
a variety of research and Testimony on GPO’s Diversity Management Programs by J. Anthony Ogden, sented in a hearing before this
                                   Inspector General, before the Subcommittee on Federal Workforce, Postal
policy matters. Tim grad-                Service, and the District of Columbia on September 16, 2008.      Subcommittee on September
uated from the University                                                                                  16, 2008. Quarterly meetings
of Virginia with a Bachelor                                                                                continue to rotate among
of Science in Mechanical                                                                                   IG offices of the Legislative
Engineering. Before attending law school, Tim worked Branch. Updates and the progress of those meetings will be
as a Patent Examiner at the U.S. Patent and Trademark provided in our respective semiannual reports.
Office focusing on Business Methods applications. Tim
is in his second year of law school at the George Mason Review of Legislation
University Law School.                                                    and Regulations

Executive Council on Integrity                                          The OIG, in fulfilling its obligations under the IG Act, reviews
and Efficiency                                                          existing and proposed legislation and regulations relating to
                                                                        programs and operations of GPO. It then makes recommen-
The President’s Council on Integrity and Efficiency (PCIE)              dations in each semiannual report on the impact of such
and the Executive Council on Integrity and Efficiency                   legislation or regulations on the economy and efficiency of
(ECIE) were both established by Executive Order to coor-                programs and operations administered or financed by GPO.
dinate and enhance governmental efforts, to promote                     In an effort to assist the Agency in achieving its goals, we will
integrity and efficiency, and to detect and prevent fraud,              continue to play an active role in that area.
waste, and abuse in Federal programs. The PCIE com-                           Although there were no legislative proposals relat-
prises 32 Inspectors General (IGs) that the President                   ing to GPO programs and operations, as the Legislative
appoints. The ECIE comprises 35 IGs that agency direc-                  Branch member of the ECIE Legislative Committee, the
tors appoint. The OIG at GPO is a member of the ECIE and                IG provided comments to the committee on bills that
participates regularly in its activities.                               would amend the IG Act. The comments focused on how
      In ongoing response to the Senate Appropriations                  the proposed amendments would affect the Legislative
Committee request that the legislative branch IGs commu-                Branch IGs. In addition, OALC reviewed and provided
nicate, cooperate, and coordinate with each other on an                 comments on the Agency’s Directive on the Office of
informal basis, the legislative branch IGs continued to meet            Workers’ Compensation Programs.


                                               Office of Inspector General
                                                                    5
GPO Management Challenges                                         Our update of management
                                                                  challenges follows:


G
           PO is well into its transformation, having estab-
           lished several key initiatives that will help the 1. Strategic Planning. As previously noted, to realize
           Agency meet its mission in the ever-changing and sustain the GPO Vision, each individual business
digital environment. Substantial and challenging risks unit within the Agency must develop and implement its
that could affect successful implementation of the pro- own clear and succinct strategic plan that aligns with
grams and initiatives will continue. In our April 2007 the GPO blueprint, A Strategic Vision for the 21st Century.
Semiannual Report to Congress, the OIG provided man- We have urged that business units develop plans that
agement a list of issues we identified as most likely to ham- cascade goals and objectives from the Agency’s plan
per the Agency’s efforts if not addressed with elevated lev- to achieve employee buy-in and keep transformation
els of attention and resources. We update the management efforts on track. In the absence of clearly articulated
challenges in this report.                                     plans, senior management cannot easily determine
      We continue to note the issue of a new headquar- whether the business units are working together toward
ters facility for GPO. As previously reported, manage- a common goal.
ment has maintained for years that the current GPO                  During this reporting period, GPO continued to
facility is too large and antiquated and requires an make progress in its efforts to implement the spirit of the
ex t raord i na r y a mou nt                                                                  Government Performance
of financial resources to                                                                     R e s u l t s A c t (G P R A ) .
operate a nd ma i nta i n.                                                                    Although not required to
Est i mates for bu i ld i ng
                                        GPO’s Top 10                                          follow all the mandates
upkeep costs during fis-                Management Challenges                                 of GPRA, Congress urged
cal year (FY) 2008 exceed               	 1.	 Strategic Planning.                             GPO to embrace its tenets.
$35 million. The Agency                 	 2.	 Management of Human Capital.                    I n t h at v ei n , t he GP O
proposed to Congress a                  	 3.	 Improved Financial Management.                  Quality Assurance office
plan for relocating to new                                                                    helped t he Agency stay
                                        	 4.	 Continuity of Operations.
facilities specifically sized                                                                 on point in achieving its
                                        	 5.	 Internal Controls.
and equipped for future                                                                       2008 goals and objectives
requirements and more
                                        	 6.	 Security and Intelligent                        by measuring and report-
effectively able to meet
                                        		 Documents.                                         ing its success t hrough
the needs of its custom-                	 7.	 Supporting Congressional Printing.              its Balanced Scorecard
ers. A lthough the chal-                	 8.	Information Technology and                      (BSC). The Agency’s BSC
lenges associated w it h                      Systems (IT&S) Management.                      i s t he f r a me w ork t h at
such a move will be sig-                	 9.	 Customer Service.                               helps translate its strat-
nificant for the Agency,                	10.	 Acquisitions.                                   egy into operational objec-
Congress must still                                                                           tives. To that end, work is
approve any relocation of                                                                     nearly complete on GPO’s
GPO operations. Members                                                                       St rateg ic Per for ma nce
of Congress have expressed interest in the issue and Plan and Achievements, which reports Agency achieve-
urged that the Agency continue its efforts toward ments in meeting its goals and outcomes. Building on its
approval. Limited movement in this regard has, how- successful performance measurement program, GPO
ever, taken place. The OIG has planned a review of the has set its sights on rolling out an employee initiative
proposed move to ensure that plans are based on sup- during FY 2009 that will educate employees on its stra-
ported and documented economic assumptions and tegic posture and BSC. We are encouraged that manage-
the Government’s future interests are adequately pro- ment has made strategic planning a priority. Continued
tected. The information reviewed thus far supports sig- progress will help transformation efforts stay on track
nificant cost savings.                                         during this critical transition time.


                                           Office of Inspector General
                                                              7
2. Management of Human Capital. We previously high-                 known as the Oracle E-Business Suite. The new system will
lighted challenges GPO faces in “right sizing” its work-            provide GPO with integrated and flexible tools that will
force while at the same time attracting employees with              help successfully support business growth and customer
the right skill sets for the new GPO. The Chief Human               technology requirements for products and services. To
Capital Officer will continue confronting significant               oversee and support such a complex effort, the GPO Oracle
issues related to transformation of the GPO workforce               Program was created. Although investment in the inte-
and must also advance creative solutions that will help             grated system presents opportunities for enhanced effi-
the Agency meet its ongoing workforce needs—in part by              ciency and cost savings, such an investment brings with it
building a diverse, qualified applicant pool.                       significant risk in the event the system does not meet user
      During this reporting period, we completed a con-             requirements. GPO must implement the program on time,
gressionally requested audit of GPO’s diversity programs,           within budget, and with a satisfactory result.
particularly those related to establishing a more diverse                The OIG continued Independent Verification and
population in senior leadership positions. The audit                Validation (IV&V) activities associated with implemen-
showed that while GPO has voluntarily adopted several               tation of the Oracle E-Business suite. IV&V provides GPO
components for establishing a model diversity program,              with an independent assessment of project status, sat-
improvements can be made toward enhancing diversity of              isfaction of user needs, and project cost effectiveness.
the Agency’s corps of senior-level employees. The results           During FY 2008, IV&V focused on the Oracle Release 2
of this audit are discussed in more detail in the Audits and        project. The main goal of Release 2 is to implement Project
Inspections section of this report.                                 Costing and Project Billing. Additional capabilities will
      The results from the GPO Employee Survey released             be added to Purchasing, Inventory, Accounts Payable,
in 2006 show that while job satisfaction is relatively              Receivables, and other implemented Oracle modules.
high, “communications at GPO” stand out as not having               The IV&V resulted in several recommendations designed
improved since 2004. When compared against results                  to improve management of the project as well as future
from the 2004 Federal Human Capital Survey, GPO actu-               Oracle projects. Management concurred with each recom-
ally rated lower in almost all identical items. Human               mendation and proposed responsive corrective actions.
Capital has, however, developed a plan addressing those             IV&V efforts for Release 2 will continue into FY 2009.
and other challenges as well as providing opportunities                  The OIG also continues to oversee activities of KPMG
for improving communications at GPO.                                LLP (KPMG), the Independent Public Accountant (IPA)
      In previous reporting periods and particularly during         conducting the annual financial statement audit. KPMG
this last reporting period, management has implemented              is auditing the GPO FY 2008 consolidated financial state-
several programs that have greatly improved commu-                  ments and assessing the status of the FY 2007 findings to
nications with all GPO employees. For example, during               determine whether they will need to be reported again in
this reporting period the Employee Communications                   the FY 2008 audit report. The results of the FY 2008 audit
Office (ECO) implemented the link program, which uses               will be reported during the next reporting period.
NetPresenter software to disseminate GPO-related infor-
mation to all GPO workstation PCs (via screen savers) as            4. Continuity of Operations (COOP). A previous OIG
well as to flat screen monitors located throughout GPO              review of GPO COOP planning revealed that the Agency
buildings. ECO will use link to supplement its existing lines       may not be adequately prepared to deal with a signifi-
of communications with employees, such as email commu-              cant event such as a natural or man-made disaster. Our
nications (GPO Headlines, Leaders’ Update) and ‘webbies’            report contains several recommendations including, most
(content on the Intranet homepage). Thus, we no longer              fundamentally, that GPO adopt planning requirements
consider this issue a significant management challenge.             and critical elements identified in Federal Preparedness
                                                                    Circular 65, “Federal Executive Branch Continuity of
3. Improved Financial Management. GPO has been                      Operations.” Management must address the problem of
migrating current business, operational, and financial sys-         continuing essential functions and be able to resume
tems, including associated work processes, to an ­integrated        normal operations within a time frame acceptable to its
system of Oracle enterprise software and ­applications              ­customers and business partners.


                                        Semiannual Report to Congress
                                                                8
     In response to our recommendations,
GPO developed a comprehensive draft
COOP plan based on the Federal Emergency
Management Agency template of key COOP
components. The draft plan discusses issues
such as essential functions, interoperable
communications, delegations of authority and
testing, training, and exercises. The Agency
also developed an Occupant Emergency Plan
(OEP) as a companion to its COOP. The OEP
presents appropriate responses for emergencies
and discusses known or anticipated categories
of emergencies.
     Steps continued to be taken during this reporting
period to enhance the Agency’s COOP posture, including
planning and conducting exercises with scenarios that
tested alternate production facilities and procedures for
notifying essential personnel. The Agency has prepared             control over financial reporting identified in a financial
and begun testing a COOP project completion matrix                 statement audit. The standard requires that the auditor
that will demonstrate what GPO can do to support mis-              communicate control deficiencies that are “significant
sion essential functions in the event of COOP activation.          deficiencies” and “material weaknesses.”
The Agency also recruited and hired a business continu-                 KPMG is auditing the Agency’s FY 2008 consolidated
ity manager to work directly with GPO’s various business           financial statements and assessing the status of FY 2007
units in support of the COOP program.                              findings that included several deficiencies related to
                                                                   internal control over financial reporting. Those defi-
5. Internal Controls. GPO management establishes and               ciencies included (1) inadequate reconciliation controls,
maintains a system of internal controls for effective and          (2) misapplication of generally accepted accounting prin-
efficient operations, reliable financial reporting, and com-       ciples, and (3) information technology (IT) general con-
pliance with applicable laws and regulations. Practically          trols. KPMG did not consider any of those deficiencies to
all OIG audits include assessments of a program, activity,         be material weaknesses.
or function’s applicable control structure. Several ongoing
audits of GPO activities are assessing internal controls.          6. Security and Intelligent Documents (SID). As the Federal
      The annual financial statement audit that KPMG con-          Government’s leading provider of secure credentials and
ducts also addresses internal controls and provides man-           identity documents, management regards SID as a business
agement with recommended corrective actions. Although              unit best exemplifying the Agency’s transformation toward
management recognizes the need for improving the inter-            high-technology production. During FY 2008, SID success-
nal control environment to successfully implement its stra-        fully manufactured more than 23 million electronic passports
tegic vision and planned future initiatives, Agency action         for the Department of State and established a new, secure
is important because of implementation of Statement                smart card credential center to support the Department of
on Auditing Standards (SAS)1 No. 112, “Communicating               Homeland Security’s Customs and Border Patrol (DHS/CBP)
Internal Control Related Matters Identified in an Audit.”          Trusted Traveler Program (TTP). Also in FY 2008, to provide a
SAS No. 112 establishes standards and provides guidance            COOP capability for passport production, the Agency success-
on communicating matters related to an entity’s internal           fully established a second secure manufacturing site at a ren-
                                                                   ovated facility on the Stennis Space Center in Mississippi.
                                                                         As a provider of secure Federal e-Credentials, SID
1 Auditing standards promulgated by the Auditing Standards
 Board of the American Institute of Certified Public               worked with DHS/CBP to design, produce, secure print, per-
 Accountants.                                                      sonalize with laser engraving, mail, and fulfill the orders for


                                            Office of Inspector General
                                                               9
border crossing cards. The Trusted Traveler program pro-                employees and contractors. The overall responsibility
vides expedited CBP processing at Canada and Mexico bor-                for a GPO-wide HSPD-12 Program lies with GPO’s Chief
der crossings for people who have undergone background                  Management Officer and Security organizations. SID
checks. The program maintains three databases of traveler               designs, prints, personalizes, and distributes the card.
information, and each has its own intelligent ID card that              While not legally required to comply with HSPD-12, we con-
contains a radio frequency chip for remote reading. The                 tinue to recommend that the Agency strive toward volun-
programs are Nexus, for travel between the United States                tary compliance. To that end, several control objectives are
and Canada; Secure Electronic Network for Travelers Rapid               critical for meeting the security, efficiency, fraud preven-
Inspection (SENTRI), for use on                                                                   tion, and privacy protection goals
the U.S./Mexico border; and Free             During FY 2008, SID                                  that HSPD-12 requires and the
and Secure Trade, for approved           successfully manufactured                                Agency must maintain through-
commercial truck drivers travel-                                                                  out the lifecycle of deployment.
ing between the three countries.            more than 23 million                                        Whatever its intentions, the
      SID made the smart card            electronic passports for the                             Agency should employ the best
program possible by reaching                                                                      practices established by HSPD-12
two critical milestones. First, SID
                                          Department of State and                                 and begin addressing several of the
established a secure e-Credential         established a new, secure                               control objectives, including sep-
production capability. It selected      smart card credential center                              arating duties for registering and
an experienced integrator that                                                                    issuing credentials; using original
could provide a turnkey solu-            to support the Department                                identity source documents; using
tion for the personalization func-         of Homeland Security’s                                 appropriate background investi-
tions of the program, including all                                                               gations; and using smart cards as
necessary equipment, systems,
                                             Customs and Border                                   person-identity-verification cre-
and technical support services.2         Patrol (DHS/CBP) Trusted                                 dentials. The OIG will continue to
The personalization equipment                                                                     monitor Agency efforts regarding
                                          Traveler Program (TTP).                                 internal deployment of HSPD-12
and system configured for GPO
enables the Agency to offer a broad range of e-Credential               and conduct audits as necessary for Agency compliance
capabilities. Second, DHS/CBP requisitioned from GPO                    with Federal Information Processing Standards Publication
hundreds of thousands of secure Trusted Traveler Cards                  201, “Personal Identify Verification of Federal Employees
      Although other concerns received attention, sev-                  and Contractors.”
eral matters must continue as a priority for management.
Although GPO and the Department of State finalized a                    7. Supporting Congressional Printing. In a previous report-
Memorandum of Understanding in December 2007, man-                      ing period, we noted that the Joint Committee on Printing
agement needs to continue to address technology as well                 expressed concerns to management that apparently stem
as data security related to the electronic passport, inven-             from late deliveries of printed versions of legislative docu-
tory volume, and storage of blank passport books. During                ments the House of Representatives and Senate require.
FY 2008, we assessed the operating system security of the               Reported reasons for the late deliveries included changes in
Passport Printing and Production System (PPPS). We rec-                 staffing, reorganization of the workforce, use of use-or-lose
ommended several steps that would improve security and                  leave during critical times, and various IT matters. During
integrity controls. During FY 2008, we also initiated an audit          this reporting period, management has, as in our last report-
of database security for that system.                                   ing period, consistently produced and delivered congressio-
      Finally, GPO faces the challenge of deploying its own             nal products on time. We therefore no longer consider this
Homeland Security Presidential Directive 12 (HSPD-12)                   issue a significant management challenge.
infrastructure and issuance of identity credentials to
                                                                        8. Information Technology and Systems Management.
2 The equipment and processes are operated exclusively by GPO          As GPO transforms from an ink-on-paper operation
 employees, and the integrator now provides consulting services.        to a highly efficient and secure multimedia digital


                                          Semiannual Report to Congress
                                                                   10
e­ nvironment, management of the Agency’s IT resources is
 critical to the success of its vision and mission. Acquisition,
 implementation, and sustainment of engineering issues
 associated with Information Technology and Systems
 (IT&S), including security issues, provide GPO with new
 management challenges.
       Noteworthy challenges for the IT&S function include
 establishing a top level Enterprise Architecture and sup-
 port for a number of significant initiatives, including
 FDsys, the e-Passport system, digital publication authen-
 tication using a Public Key Infrastructure (PKI), informa-             toward using PKI for the benefit of a variety of customers.
 tion system management, implementation of the Oracle                   PKI will serve as an important contributor for future reve-
 E-Business Suite, and implementation of digital human                  nue-generating activities within GPO. To partially meet PKI
 resources systems. To create a plan that will help mitigate            certification provisions, the OIG conducts annual compli-
 risks on aging legacy systems, IT&S initiated an analysis              ance reviews that determine whether assertions related to
 of legacy applications and its impact on business opera-               the adequacy and effectiveness of the controls over GPO’s
 tions. Legacy systems increasingly inhibit Agency ability              PKI Certificate Authority operations are fairly stated based
 to respond to customer needs and must be replaced. In FY               on underlying principles and evaluation criteria. Finally, the
 2008, IT&S completed a 5-year strategy that should help                OIG will continue to lead IV&V activities associated with the
 guide the Agency through implementation of new sys-                    ongoing implementation of the Oracle E-Business Suite and
 tems and retirement of legacy systems. In FY 2009, FDsys,              implementation of FDsys.
 human resource systems, and certain Oracle E-Business
 modules are scheduled to be operational.                               9. Customer Service. As the Agency moves closer to its
       Because GPO provides services to Executive Branch                goal of transforming to a 21st Century information pro-
agencies who must comply with the Federal Information                   cessing and dissemination operation, customer ser-
Security Management Act of 2002 (FISMA), GPO chose to sub-              vices for GPO must reflect and advance that transforma-
 stantially comply with the principles of the Act. Complying            tion. To ensure success in the future, management must
with FISMA presents additional challenges for IT&S, includ-             maintain the appropriate focus, staffing, and alignment
ing protecting sensitive Agency systems, information, and               with its Strategic Vision. The culture and focus of cus-
data. During FY 2007, the OIG conducted an assessment of                tomer service efforts must reflect a new way of thinking,
compliance with FISMA to identify any gaps and deficiencies             and customers should come to GPO because they want
in the overall information security program, including criti-           to—not because they must. Transformation of the tra-
cal systems. We conducted a follow-on FISMA assessment                  ditional GPO customer relationship requires a continu-
in FY 2008. We also conducted the annual assessment of the              ing evolution toward state-of-the-art customer relations
 GPO enterprise network infrastructure to evaluate the level            management.
 of security controls in place that help protect IT resources
 from unauthorized access and compromise.                               10. Acquisition. The OIG continues to be concerned with
       As the Agency fulfills its mission in the vital arena of         the Agency’s ability to efficiently and effectively acquire the
 electronic information dissemination and E-Government,                 high-technology goods and services necessary for trans-
 GPO established a PKI that will serve the needs of the                 forming the Agency. Acquisitions such as FDsys and the
 Agency, its legislative branch partners, and other Federal             upcoming e-Passport procurement require a professionally
 partners.3 The PKI is cross-certified with the Federal Bridge          trained contracting workforce skilled at carrying out nontra-
Certificate Authority—a substantial and necessary step                  ditional acquisitions. In addition, in concert with the Public
                                                                        Printer’s Sustainable Environmental Stewardship initiative,
                                                                        the Agency must be able to navigate the acquisition rules to
3 PKI ensures the highest level of protection for electronic
 information that travels over ordinary, nonsecure networks
                                                                        determine how best to promote this initiative through every
 by encrypting information.                                             product it buys and provides for its customers.


                                              Office of Inspector General
                                                                   11
Office of Audits and Inspections                                    C. External Peer Review of the Board of
(OAI)                                                               Governors of the Federal Reserve System
                                                                    Section 3.55 of the GAGAS requires that each audit organi-
                                                                    zation performing audits or attestation engagements have



O
          AI, as required by the IG Act, conducts indepen-          an external peer review performed by reviewers indepen-
          dent and objective performance and financial              dent of the audit organization being reviewed at least once
          audits relating to GPO operations and programs,           every three years.
and oversees the annual financial statement audit an IPA                  The elements of quality control are described in
firm under contract performs. OAI also conducts short-              GAGAS. A quality control system encompasses the orga-
term inspections and assessments of GPO activities that             nizational structure as well as the policies adopted and
generally focus on issues limited in scope and time. All            procedures established to provide reasonable assurance
OIG audits are performed in accordance with generally               of conforming with GAGAS. The design of the system, and
accepted government auditing standards (GAGAS) that                 compliance with it in all material respects, are the respon-
the Comptroller General of the United States issues. When           sibility of the audit organization. The objective of the exter-
requested, OAI provides accounting and auditing assis-              nal peer review is to determine whether the internal qual-
tance for both civil and criminal investigations. OAI refers        ity control system was adequate as designed and complied
to OI for investigative consideration any irregularities or         with to provide reasonable assurance that applicable audit-
suspicious conduct detected during audits, inspections,             ing standards, policies, and procedures were met.
or assessments.                                                           The OIG conducted an external peer review of the
                                                                    Board of Governors of the Federal Reserve System’s
A. Summary of Audit and                                             Inspector General Audit Organization (Board OIG) for the
Inspection Activity                                                 18‑month period ending March 31, 2008. We conducted
During this reporting period, OAI issued seven new audit            our review in accordance with the guidelines established
and assessment reports. Those 7 reports contained a total           by the PCIE and ECIE and rendered an unqualified opin-
of 16 recommendations for improving GPO operations,                 ion on the Board OIG’s audit quality control system in
including strengthening internal controls throughout                effect for the 18‑month period ending March 31, 2008.
the Agency. OAI continued its work with management to
close open recommendations carried over from previous               D. Future Digital System – Independent
reporting periods. As of September 30, 2008, 39 recom-              Verification and Validation
mendations were open.                                               The FDsys will be a comprehensive information lifecy-
                                                                    cle management system that will ingest, preserve, pro-
B. TeamMate Audit Software                                          vide access to, and deliver content of all three branches
Implementation                                                      of the Federal Government. The system is envisioned
OAI continued its implementation of TeamMate audit                  as a comprehensive, systematic, and dynamic means of
software during this reporting period. TeamMate auto-               preserving electronic content free from dependence on
mates the entire workpaper process, including prepara-              specific hardware and/or software. It will have 6 clusters
tion, review, report generation, and global issue tracking,         (Content Management, Content Preservation, Content
and OAI will use the program to increase the efficiency             Access, Content Delivery, Content Submission, and
and productivity of the entire audit process including              Infrastructure), which comprise 25 or more functional
risk assessment, scheduling, preparation, review, report            areas. A multiyear, multirelease integration effort will be
generation, and global issue tracking. TeamMate was                 used to design, procure, develop, integrate, and deploy
originally designed for all types of audits, including com-         selected technologies and components of FDsys.
pliance, contract, controls, efficiency and regulatory                   During the last reporting period, GPO reorganized
reviews, financial, government, IT, investigations, pro-            the FDsys Program with respect to GPO and contractor
cedural, and security. OAI has successfully begun using             participation and responsibilities. The reorganization
TeamMate for new audit assignments.                                 reduces contractor tasking and increases GPO efforts.



                                          Office of Inspector General
                                                               13
GPO is now managing development, integration, and                      has significantly less functionality than R1C and that R1C2
deployment of FDsys. A contractor is developing the actual             is costing more and taking longer to deploy, while provid-
FDsys software and support procurement and installation                ing less functionality and less data.6 Specifically:
of the system hardware.
     The OIG is responsible for IV&V work associated with                  ■■   The estimated cost to complete R1C2 exceeds the
developing and implementing FDsys. We contracted with                           anticipated cost of R1C by $8  million ($24 million
American Systems4 to conduct the evaluations. American                          for R1C2 versus $16 million for R1C). An additional
Systems has extensive IV&V experience with the Federal                          $10 million is the estimate to complete all the origi-
sector, and IV&V work will determine whether system                             nal R1C.
implementation is consistent with the FDsys project plan                   ■■   The planned completion date for R1C2 is a year and
and cost plan and meets GPO requirements. Additionally,                         a half after the original date for R1C (December 2008
IV&V will monitor development and program manage-                               for R1C2 versus June 2007 for R1C). An additional
ment practices and processes to anticipate potential                            year is the estimate to complete all of R1C.
issues. Specific IV&V tasks include:                                       ■■   The amount of data available for the R1C2 deploy-
                                                                                ment will be significantly less than was planned for
    ■■   Program Management – IV&V activities regarding the                     R1C (as measured by document collections, 8 to 10
         cost, schedule, and risk associated with development                   collections for R1C2 versus 55 collections planned for
         and implementation to evaluate overall program                         R1C). There is no estimate for when the remaining
         management effectiveness.                                              collections will be made available.
    ■■   Technical – IV&V activities regarding the resources,
         system requirements, architecture and design docu-
         ments, and other critical deliverables associated with        E. Oracle Release 2 – Independent
         FDsys development and implementation.                         Verification and Validation
    ■■   Testing – IV&V activities regarding the Design Vali-          GPO is implementing the Oracle E-Business Suite in a
         dation Test Plan and test efforts performed by the            series of phased releases with incremental functional
         implementation team to verify the adequacy and                capabilities. GPO has completed some early implementa-
         completeness of testing activities.                           tion start-up projects to become familiar with Oracle tech-
                                                                       nology and work processes and to develop successful proj-
                                                                       ect implementation skills. The current project, Release 2, is
     In Section G, we discuss our report resulting from                implementing the Oracle Projects module, which consists
these IV&V efforts, which are ongoing and will continue                of project costing and project billing. Other capabilities
throughout the life of the project.                                    will be added to Purchasing, Inventory, Accounts Payable,
     FDsys is being implemented through a series of                    Receivables, and other implemented Oracle modules.
releases, with each release building upon the features                       The OIG will oversee IV&V work associated with imple-
of the previous. During this reporting period, our IV&V                mentation of the Oracle E-Business Suite. We contracted
team performed a gap analysis to determine the differ-                 with Noblis7 to conduct the IV&V evaluations. Noblis has
ences between the original plan for development of FDsys               extensive IV&V experience with the Federal sector. Our
known as R1C and the current plan to deploy R1C2 5 in                  IV&V work noted that the Release 2 project has had some dif-
December of 2008. The gap analysis revealed that R1C2                  ficulties associated with requirements gathering and “to-be”


4                                                                      6
   merican Systems, located in Chantilly, Virginia, is a large
  A                                                                       ur gap analysis does not separate costs or performance
                                                                         O
  IT company with significant experience in the realm of                 associated with the time periods before and after the
  IV&V for Federal civilian and Defense Agencies, including              reorganization of the FDsys program.
                                                                       7
  the Department of State, the Navy, and the U.S. Agency for             Noblis, located in Falls Church, Virginia, is a nonprofit
  International Development.                                              science, technology, and strategy organization that helps
5 The original targeted first public release of FDsys R1C has            Federal and private sector clients solve complex systems,
   now been divided into three releases: R1C2 in late 2008,               process, and infrastructure problems.
   R1C3 in mid-2009, and R1C4 in late 2009.


                                           Semiannual Report to Congress
                                                                  14
process definitions. However, steps have been taken to rem-        r­ ecommendations addressing each deficiency and GPO
edy many of the weaknesses. In Section G, we discuss our            management concurred with the recommendations.
report resulting from these IV&V efforts, which are ongoing              KPMG is currently auditing GPO’s FY 2008 consoli-
and will continue throughout the life of the project.               dated financial statements and assessing the status of the
                                                                    FY 2007 findings to determine whether they will need to
F. Financial Statement Audit Activity                               be reported again in the FY 2008 audit report, along with
Federal law requires that GPO obtain an independent                 potentially new findings and recommendations.
annual audit of its financial statements, which the OIG
oversees. KPMG is conducting the audit under a multi-              G. Audit and Inspection Reports
year contract for which the OAI provides oversight as the          1. Assessment Report 08-07 (Issued May 30, 2008)
Contracting Officer’s Technical Representative (COTR).
                                                                     Protection of E-Passport Production System (PPPS)
OAI also assists with facilitating the external auditor’s
work as well as reviewing the work performed to ensure it            The PPPS includes various computer applications and
complies with GAGAS. In addition, OAI provides adminis-              operating systems that support production of pass-
trative support to the KPMG auditors and coordinates the             ports. GPO’s Plant Operations Division administers
audit with GPO management.
      KPMG issued an unqualified opinion
on GPO’s FY 2007 consolidated financial      While performing a security audit of databases that
statements, stating that its financial state-support the PPPS hosted in Washington D.C., the
ments were presented fairly, in all mate-
rial respects, in conformity with generally
                                             OIG identified an issue related to protection of the
accepted accounting principles. KPMG         e-Passport network and related computers.
identified three significant deficien-
cies for FY 2007: (1) inadequate reconciliation controls,            PPPS computer applications while the GPO Chief
(2) misapplication of U.S. generally accepted account-               Information Officer (CIO) is responsible for administer-
ing principles, and (3) general IT controls. KPMG made               ing PPPS operating systems. While performing a secu-
                                                                     rity audit of databases that support the PPPS hosted in
                                                                     Washington D.C., the OIG identified an issue related to
                                                                     protection of the e-Passport network and related com-
                                                                     puters. We issued a separate sensitive report containing
                                                                     recommendations that would help further strengthen
                                                                     controls over PPPS. Management took prompt correc-
                                                                     tive action to implement the recommendation.

                                                                   2. Assessment Report 08-08 (Issued August 8, 2008)
                                                                     Federal Digital System Independent Verification
                                                                     and Validation – Third Quarter Observations and
                                                                     Recommendations

                                                                     As noted above, the OIG contracted with American
                                                                     Systems, a company with significant experience in the
                                                                     realm of IV&V for Federal civilian and Defense agen-
                                                                     cies, to conduct IV&V for the public release of FDsys.
                                                                     As part of its contract, the contractor is assessing the
                                                                     state of program management, technical and testing
                                                                     plans, and other efforts related to this public release.
                                                                     The contractor is required to issue to the OIG a quar-


                                         Office of Inspector General
                                                              15
  terly Risk Management, Issues, and Traceability Report                c­ onducted in May 2006 concluded that controls were
  providing observations and recommendations on the                      not effective over (1) travel fares charged to the GPO’s
  program’s technical, schedule and cost risks, as well as               Agency MasterCard account and (2) service fees
  requirements traceability of those risks and the effec-                charged directly to GPO.
  tiveness of the program management processes in                              The May 2006 audit identified approximately $32,000
  controlling risk avoidance. Additionally, at the end of                in travel fares and service fees associated with travel by
  each FDsys release phase, the contractor is required to                GPO employees during FY 2005 that could not be recon-
  issue a release phase summary program management                       ciled with official travel records. The audit also found that
  report that addresses delivery of the technical base-                  before authorizing monthly payments to BoA, the Agency/
  line according to the FDsys Master Program Schedule                    Organization Program Coordinator did not verify that
  and the risks that affect the schedule’s critical path to              travel fares and NTS service fees charged to the Agency
  the next phase.                                                        MasterCard account were for actual travel expenses. The
        During this reporting period, the Agency imple-                  OIG recommended that the:
  mented a reorganization of the Government and con-
  tractor participation and responsibilities as well as                 ■■   GPO Chief Financial Officer (CFO) eliminate use of
  implemented a new design for FDsys. According to                           the Agency MasterCard account for airline and rail
  GPO officials, the primary reason for the reorganiza-                      tickets and direct that NTS charge tickets to either the
  tion was management’s dissatisfaction with contrac-                        individual GPO traveler’s Government-issued Mas-
  tor performance. Although the OIG’s first quarterly                        terCard or personal credit card.
  report identified various weaknesses in program man-                  ■■   The GPO CFO direct NTS to charge service fees to
  agement practices the contractor used for the Release                      each individual GPO traveler’s Government-issued
  1.B pilot system, our IV&V contractor was not tasked                       MasterCard or personal credit card.
  to investigate or evaluate the reasons behind GPO’s
  decision to reorganize the program, and accordingly                      Management concurred with the recommendations
  did not render an opinion on the reorganization. The                and agreed to implement corrective actions. The OIG sub-
  contractor was, however, responsible for informing the              sequently performed this follow-up audit to determine
  OIG of the risks the FDsys program faces at the end of              whether recommendations made in the May 2006 audit
  each quarter.                                                       were effectively implemented. The follow-up audit showed
        This third quarter report contains findings and               that although management implemented changes in pol-
  recommendations that further strengthen management                  icy addressing the recommendations, problems similar
  of the FDsys program and management’s response to                   to those identified in our May 2006 audit continued. For
  those recommendations. Management concurred with                    example, throughout almost all of FY 2007, the GPO Travel
  each of the recommendations and either took or pro-                 Manager authorized payments to BoA of approximately
  posed responsive corrective actions.                                $96,512 for travel fares and service fees for 147 employees
                                                                      whose expenses were charged to the Agency MasterCard
3. Audit Report 08-09 (Issued August 8, 2008)                         account—despite the fact that 36 (24 percent) of those
                                                                      employees had a Government-issued MasterCard. Charging
  Follow-up Audit of Centrally Charged Travel
                                                                      fares and fees to the wrong account continued because inef-
  Expenditures
                                                                      fective controls hampered the GPO Travel Manager from
  GPO has an agency account with MasterCard through                   identifying questionable charges for travel fares and service
  the Bank of America (BoA) for the centralized charg-                fees NTS makes through the Agency MasterCard account
  ing and billing of various common travel expendi-                   with BoA. Because the controls were ineffective, monthly
  tures. The agency also has contracted with National                 invoices to BoA for the Agency MasterCard account were
  Travel Services, Inc. (NTS) to provide assistance to GPO            not reconciled to travel vouchers.
  travelers in making travel arrangements including                        Reconciliation would have verified whether travel
  ­airline, rail, hotel, and rental car reservations. A previ-        fares and service fees NTS billed through BoA were accu-
   ous OIG audit of centrally charged travel ­expenditures            rate, were actually incurred for official business, and


                                        Semiannual Report to Congress
                                                                 16
c­ omplied with Agency policy. Because reconciliations            The audit identified that although not mandated
 did not take place, the GPO Travel Manager was not able to to comply with the guidelines and directives of the
 determine that NTS charged $24,233.61 in travel fares and  Equal Employment Opportunity Commission (EEOC)
 service fees to the Agency MasterCard account for 56 trips concerning model affirmative action programs, prior
 taken by the 36 employees who possessed a Government-      to this audit commencing, senior officials at GPO began
 issued MasterCard. Adding to that condi-
 tion, 14 employees subsequently submitted
 travel vouchers requesting reimbursement             “Everyone in the workplace should be afforded
 for travel fares and service fees charged to         the opportunity to develop, perform, and
 the Agency account. We identified approxi-
mately $8,495 that GPO can recover because
                                                      advance to their maximum potential based solely
of erroneous payments.                                on their merit and without regard to race, color,
       A total of three recommendations were
made to further strengthen management
                                                      religion, national origin, gender, age, disability,
of GPO travel expenditures. Management                or sexual orientation.”
concurred with each recommendation Testimony on GPO’s Diversity Management Programs by J. Anthony Ogden, Inspector General, before the
and implemented responsive corrective Subcommittee on Federal Workforce, Postal Service, and the District of Columbia on September 16, 2008.
actions.

4. Audit Report 08-10 (Issued September 11, 2008)                                adopting some elements of both EEOC Management
                                                                                  Directive-715 (MD-715) and the leading diversity
    Diversity Management Programs at GPO
                                                                                  management practices identified by the Government
    The OIG audited diversity management programs                                 Accountability Office (GAO).
    at GPO in response to a request from the Chairman                                   In addition, GPO has made progress in develop-
    of the Subcommittee on Federal Workforce, Postal                              ing its pool of Grade 15s (PG‑15s) to ensure a quali-
    Service, and the District of Columbia, of the House                           fied minority pool for the Agency’s SLS.10 However,
    of Representatives’ Committee on Oversight and                                improvements can be made toward enhancing diver-
    Government Reform. The Subcommittee requested                                 sity of the Agency’s corps of SLS employees. The audit
    that the OIGs of each Legislative Branch Agency assess                        also showed that GPO complaints and discrimi-
    the programs the diversity offices have in place to                           nation data reported to the EEOC during FY 2007
    address diversity concerns.8 The objectives of the audit                      and eventually reported to Congress were accurate
    were to review diversity within GPO, specifically to:                         and complete. Finally, although diversity manage-
                                                                                  ment programs are incorporated in the Affirmative
    ■■   Identify and assess the diversity program at GPO to                      Employment Program Division of the EEO Office,
         determine if it is yielding the desired results—that of                  the Director of EEO is independent of the General
         creating a more diverse population of women and                          Counsel, and to a certain extent independent of the
         minorities in top leadership positions, specifically the                 Public Printer in EEO matters.
         Senior Level Service (SLS).9                                                   Opportunities exist for GPO to develop a more
    ■■   Evaluate the accuracy and completeness of the com-                       diverse population of qualified women and minorities
         plaints and discrimination data reported to Congress.                    in top leadership positions. We made two recommen-
    ■■   Assess the degree to which diversity offices or func-                    dations to management: 1) incorporate the remain-
         tions are independent of the General Counsel and                         ing essential elements of MD-715 and 2) implement
         the Public Printer.                                                      the nine leading practices for diversity management

8                                                                          10 
    ther legislative branch agencies include the Library of
   O                                                                          At GPO, a Printing Office Grade (PG) 15 is the senior most
   Congress, Government Accountability Office, Architect of                   grade and is generally equivalent to the General Schedule
   the Capitol, and the Capitol Police.                                       Grade 15 classified by the Office of Personnel Management.
9
  SLS is the GPO equivalent to the Senior Executive Service (SES).           Positions at GPO above Grade PG-15 are in the SLS.

                                               Office of Inspector General
                                                                      17
  identified by GAO. Such modifications should help               6. Assessment Report 08-12 (Issued September
  the Agency manage its workforce, create an environ-                 30, 2008)
  ment that helps diminish barriers for protected groups
                                                                    Assessment of GPO’s Transition Planning for Internet
  and help attract and retain capable employees from
                                                                    Protocol Version 6
  diverse backgrounds. Management concurred with
  each of the recommendations and stated that imple-                The OIG assessed Agency planning for the transition
  mentation would require the Public Printer’s review               from Internet Protocol version 4 (IPv4) to version 6 (IPv6).
  and approval.                                                     Internet routing protocols are used to exchange infor-
                                                                    mation across the Internet. Protocols are standards that
5. Assessment Report 08-11 (Issued September                       define how computer data are formatted and received by
    18, 2008)                                                       other computers. IPv6 is a developing Internet protocol
                                                                    which will provide many benefits such as more Internet
  WebTrust Assessment of GPO’s Certification
                                                                    addresses, higher qualities of service, and better authen-
  Authority – Attestation Report
                                                                    tication, data integrity, and data confidentiality.
  GPO implemented a PKI to support its mission related                    OMB recently announced that all Executive
  to electronic information dissemination and e-Gov-                Branch agencies met a June 30, 2008, deadline for suc-
  ernment, and to meet GPO customer expectations                    cessfully demonstrating IPv6 capability of network
  that documents are official                                                               backbones. While GPO was not
  and authentic. The GPO PKI
                                    IPv6 is a developing Internet                           required to meet the OMB dead-
  is certified with the Federal                                                             line, IPv6 capability provides cer-
  Bridge Certificate Authority,      protocol which will provide                            tain benefits to GPO as industry
  whose certification provi-            many benefits such as                               provides products and services
  sions require that the GPO                                                                that are IPv6-enabled.
  PKI undergo an annual inde-
                                       more Internet addresses,                                   The OIG assessment identi-
  pendent compliance review.          higher qualities of service,                          fied that GPO plans to transition
  To satisf y this compliance
  requirement, the GPO OIG
                                     and better authentication,                             to IPv6 as part of a broad acqui-
                                                                                            sition plan that will update its
  tasked an IPA firm to conduct        data integrity, and data                             IT infrastructure. Specific target
  a WebTrust assessment of its             confidentiality.                                 dates for these updates have not
  Certification Authority (CA).                                                             been finalized. The OIG believes
  The assessment was con-                                           that the planned transition is an effective long-term
  ducted in accordance with the American Institute                  approach. In the short term, GPO should consider
  of Certified Public Accountants (AICPA) “WebTrust                 implementing the minimum IPv6 requirement, which
  Principles and Criteria for Certification Authorities.”           should ensure that resources such as FDsys are capable
  The assessment represents an evaluation of whether                of ingesting information from IPv6 sources. Two rec-
  GPO management’s assertions related to the adequacy               ommendations were made to management to enhance
  and effectiveness of controls over its CA operations              planning for the IPv6 transition. Management con-
  are fairly stated based on underlying principles and              curred with each of the recommendations and has
  evaluation criteria.                                              either taken or planned responsive corrective actions.
        From July 1, 2007, through June 30, 2008, the IPA
  issued an Attestation Report expressing its unqualified         7. Assessment Report 08-13 (Issued September
  opinion that the GPO management assertion related                   30, 2008)
  to its CA operations was in all material respects fairly
                                                                    Oracle E-Business Suite Release 2 Independent
  stated based on the AICPA WebTrust for Certification
                                                                    Verification and Validation – Program Management
  Authorities criteria. The report is sensitive.
                                                                    The OIG contracted with a nonprofit science, ­technology,
                                                                    and strategy organization to conduct IV&V of the GPO


                                      Semiannual Report to Congress
                                                             18
  Oracle Program’s E-Business Suite Release 2 implemen-            sensitive and are limiting discussion of its findings.
  tation. The overall objective of IV&V is to ­determine           Further details regarding assessment findings can be
  whether system implementation is consistent with                 obtained by contacting the OIG.
  the Oracle project plan and cost plan, and whether the
  delivered system meets GPO requirements. The con-                Recommendation
  tractor is tasked with assessing program management,             The OIG made four recommendations that should
  technical, and testing activities associated with the            strengthen internal controls associated with the GPO
  Release 2 implementation and required by the contract            enterprise network. Those recommendations should
  to issue a monthly program risk assessment as well as            reduce the risk of compromise to GPO data and systems.
  summary reports for program management, technical,               Based on corrective action management took, we closed
  and testing IV&V.                                                one recommendation when the final report was issued.
        This first report is the summary report on Oracle          Management Comments
  Release 2 program management. Program manage-                    Management concurred with each of the report’s rec-
  ment IV&V focuses on activities that define and shape            ommendations and initiated corrective action.
  the program and projects that support them. As part
  of program management IV&V, the IV&V contractor                  OIG Comments
  analyzed program and project schedules, develop-                 Two recommendations made in this report remain
  ment processes (for example, change management,                  open. The OIG is working with management and moni-
  issue tracking, and risk management approaches)                  toring implementation of the remaining recommen-
  and conducted risk analyses. The report contained                dations.
  four recommendations designed to strengthen cur-
  rent and future Oracle program management efforts.             2. Assessment Report 06-03 (Issued March 31,
  Management concurred with each of the four recom-                  2006)
  mendations and has either taken or proposed respon-
                                                                   GPO Oracle Program Stakeholder Analysis
  sive corrective actions.
                                                                   Finding
H. Status of Open Recommendations                                  The assessment identified several vulnerabilities
Management officials made significant progress in imple-           associated with the GPO Oracle Program and made
menting and closing many of the recommendations iden-              recommendations that would help mitigate risks
tified during previous semiannual reporting periods. For           associated with those vulnerabilities. The vulner-
the 39 recommendations still open, a summary of the                abilities identified during the assessment included
finding and recommendations, along with the status of              (1) top management support not aligned with program
actions for implementing the recommendation and OIG                execution; (2) inadequate functional and technical
comments, follow.                                                  staffing; (3) lack of a methodology for organizational
                                                                   restructuring; (4) lack of targeted performance met-
1. Assessment Report 06-02 (Issued March 28,                      rics; and (5) lack of an effective method for managing
    2006)                                                          program progress.

  GPO Network Vulnerability Assessment
                                                                   Recommendation
  Finding                                                          To help ensure the Oracle Program meets expectations
  Although GPO has many enterprise network controls in             of its stakeholders, the OIG made 13 recommendations
  place, improvements that will strengthen the network             in the areas of staffing, management alignment and
  security posture are needed. During internal testing,            organizational restructuring, use of performance met-
  we noted several vulnerabilities requiring strength-             rics, and management of program progress.
  ening of controls. However, no critical vulnerabili-
  ties were identified during external testing. Although           Management Comments
  unclassified, we consider the results of the assessment          Management concurred with each of the report’s


                                        Office of Inspector General
                                                            19
  r­ ecommendations and agreed to take corrective actions              information and information systems that support the
   throughout implementation of the project.                           operations and assets of the agency, including those
                                                                       provided or managed by another agency, contractor,
  OIG Comments                                                         or other source.11 Although a legislative branch agency,
   As of the end of this reporting period, six recommen-               the Agency has recognized the need to be FISMA com-
  dations remain open. Management is continuing to                     pliant because of the services it provides, including ser-
  work on implementing corrective actions. We antici-                  vices to Executive Branch agencies. The OIG issued a
  pate that these recommendations will be closed upon                  sensitive report concluding that although the Agency
  implementation of Oracle Release 2.                                  has taken steps to comply with FISMA, additional prog-
                                                                       ress is needed to fully comply.
3. Assessment Report 07-01 (Issued November
    20, 2006)                                                          Recommendation
                                                                       The report contains 11 recommendations which, if imple-
  Report on Early Oracle Implementation:
                                                                       mented, will help move GPO toward FISMA compliance.
  Independent Verification and Validation

  Finding                                                              Management Comments
  The OIG initiated IV&V activities beginning with two                 Management concurred with each of the recommen-
  of the early implementation projects for Oracle. The                 dations and proposed corrective actions.
  objective of IV&V is to provide GPO with an indepen-
  dent assessment of project status, satisfaction of user              OIG Comments
  needs, and project cost effectiveness. The OIG issued                Management is working on implementing corrective
  a sensitive report summarizing vulnerabilities identi-               actions for the open recommendations. As part of the
  fied during the IV&V activities.                                     2008 FISMA review, we reviewed management’s prog-
                                                                       ress in implementing the recommendations. We closed
  Recommendation                                                       4 of the 11 recommendations.
  The report includes 21 recommendations to manage-
  ment for strengthening controls and mitigating risks           5. Assessment Report 07-10 (Issued September
  associated with the vulnerabilities.                               28, 2007)
                                                                       Report on Perimeter Security Assessment of a GPO
  Management Comments
                                                                       Building
  Management concurred with each of the recommen-
  dations and proposed corrective actions.                             Finding
                                                                       The Federal Protective Service (FPS), an organization
  OIG Comments                                                         within the DHS, provides law enforcement and secu-
  Nine recommendations made in this report remain                      rity services to the General Services Administration
  open. Management continues to work on implement-                     for ­f ederally owned and leased facilities. At the
  ing corrective actions.                                              request of the OIG, FPS conducted a physical secu-
                                                                       rity ­a ssessment of a GPO building. The FPS meth-
4. Assessment Report 07-09 (Issued September                          odology for assessing security in the GPO building
    27, 2007)                                                          included (1) identifying existing countermeasures at
                                                                       the facility, (2) identifying credible threats to the facil-
  Report on GPO’s Compliance with the Federal
                                                                       ity, and (3) rating each threat as to potential impact of
  Information Security Management Act (FISMA)
                                                                       loss and vulnerability. The sensitive report contains
  Finding                                                              recommendations intended to enhance security of
  FISMA requires that each Executive Branch Agency                     the building.
  develop, document, and implement an agency-wide
  program for providing information security for the             11
                                                                      Section 3541, title 44, United States Code.


                                     Semiannual Report to Congress
                                                            20
  Recommendation
  The report contains 12 recommendations which, if imple-
  mented, will help enhance security of the building.

  Management Comments
  Management concurred with each of
  the recommendations and proposed
  corrective actions.

  OIG Comments
  During this reporting period, manage-
  ment closed one of the remaining three
  open recommendations. Two recommen-
  dations remain open. With proposed cor-
  rective actions in place, we anticipate closing
  the remaining two recommendations during the
  next reporting period.

6. Assessment Report 08-01 (Issued November
    1, 2007)
  GPO Network Vulnerability Assessment

  Finding
  The OIG completed a vulnerability assessment of the
  GPO enterprise network infrastructure and evaluated
  the level of security controls in place that help protect
  the Agency’s IT resources from unauthorized access                  the risk of system compromise and loss of availability.
  and compromise. We limited our assessment to the area
  between GPO’s Internet service provider and the outer-
  most firewall interface where the Agency’s publicly avail-          Management Comments
  able network resources, such as GPO Access, are hosted.             Management concurred with each of the recommen-
  That area is commonly referred to as the demilitarized              dations and proposed corrective actions.
  zone, or DMZ. We determined whether GPO (1) main-
  tained a robust and effective vulnerability scanning and            OIG Comments
  management program that identified and circumvented                 Two recommendations remain open. With proposed
  common internal and external threats to its network,                corrective actions in place, we anticipate closing the
  (2) used passwords in the DMZ strong enough to prevent              remaining two recommendations during the next
  brute force attacks, and (3) patched systems in the DMZ             reporting period.
  in a timely and effective manner. The audit revealed that
  there was room for improvement and recommended                    7. Assessment Report 08-04 (Issued March 28,
  ways that would not only help strengthen security of the              2008)
  publicly available network resources but also reduce the
                                                                      Federal Digital System Independent Verification
  risk of system compromise and loss of availability.
                                                                      and Validation – First Quarter Observations and
                                                                      Recommendations
  Recommendation
  The report contained seven recommendations to not                   Finding
  only help strengthen network security but also reduce               The FDsys program is a multimillion dollar effort that


                                          Office of Inspector General
                                                               21
GPO is funding for modernizing information collection,           8. Assessment Report 08-06 (Issued March 31,
processing, and dissemination capabilities it performs               2008)
for the three branches of the Federal Government.
                                                                   Operating System Security for GPO’s Passport
The OIG is conducting IV&V of FDsys implementa-
                                                                   Printing and Production System
tion through a contract with an IT company. Between
July and September 2007, the contractor completed                  Finding
its initial assessment of the FDsys prime contractor’s             The PPPS includes various computer applications and
program management practices used for the Release                  operating systems that support production of pass-
1.B pilot system. The initial IV&V assessment showed               ports. The Agency’s Plant Operations Division admin-
that the prime contractor established a strong basis for           isters PPPS computer applications while its CIO is
good program management practices for Release 1.B.                 responsible for administering PPPS operating systems.
We did, however, identify some weaknesses that could               If those operating systems are not configured securely,
lead to schedule risk and cost overrun for Release 1.C if          critical computer applications such as databases and
not addressed in a timely manner. Those weaknesses                 custom applications are vulnerable to compromise.
included the following areas.                                      The risk associated with compromise to the operat-
                                                                   ing systems hosting such critical applications could
■■   insufficient use of earned value analysis                     result in services being disrupted, sensitive informa-
■■   lack of an Integrated Baseline Review                         tion being divulged, or even subject to forgery. The OIG
■■   incomplete adherence to risk management program               assessed the security configuration for selected oper-
                                                                   ating systems that support production of passports to
■■   risks associated with testing
                                                                   determine whether GPO enforces an appropriate level
■■   lack of system capabilities documentation
                                                                   of security.
■■   insufficient Configuration Management Plan
                                                                   Recommendation
Recommendation                                                     The OIG issued a sensitive report containing eight rec-
The report contained 14 recommendations designed to                ommendations designed to not only help strengthen
strengthen management of the FDsys program.                        the security of the PPPS but also reduce the risk of sys-
                                                                   tem compromise.
Management Comments
Management concurred with each of the recommenda-                  Management Comments
tions and proposed responsive corrective actions.                  Management generally concurred with each of the
                                                                   recommendations and proposed responsive correc-
OIG Comments                                                       tive actions.
During this reporting period, we worked with manage-
ment to close 8 of the remaining 11 open recommenda-               OIG Comments
tions. We anticipate closing the remaining three rec-              During this reporting period, all of the eight recom-
ommendations during the next reporting period.                     mendations remained open.




                                       Semiannual Report to Congress
                                                            22
Office of Investigations (OI)




T
        he Office of Investigations (OI) conducts and coordi-
        nates investigations relating to alleged or suspected
        misconduct and monetary or material losses occur-
ring in GPO programs and operations. The subjects of OI
investigations can be contractors, program participants,
management, or other Agency employees. Special Agents
in OI are Federal Criminal Investigators. Investigators are
also designated as Special Police Officers.
     Investigations that uncover violations of Federal law
or GPO rules or regulations may result in administrative
sanctions, civil or criminal prosecution. Prosecutions
may result in court-imposed prison terms, probation,
fines, and restitution. OI can also issue Management
Implication Reports, which identify issues uncovered
during an investigation it believes warrant management’s
prompt attention.

A. Summary of Investigative Activity
During this reporting period and in response to 50 con-              include false claims, false statements, wire and mail fraud,
tacts, complaints, or allegations, OI opened 18 investiga-           product substitution, and Small Disadvantaged Business
tive cases and closed 20. OI has 22 ongoing investigations.          Program violations. OI has seven open cases involving
During this reporting period, one investigation resulted in          alleged procurement fraud.
three criminal indictments, one other case was accepted
for possible criminal prosecution, and one case against a            Employee Misconduct
contractor was forwarded to the agency for administra-               OI investigates allegations involving GPO employee
tive action. In addition, two other workers’ compensa-               misconduct. Allegations generally include misuse of
tion investigations resulted in $245,289 in recoveries and           Government computers, theft, assaults, drug violations,
$420,000 in cost savings over 10 years.                              gambling, and travel voucher fraud. OI has seven open
                                                                     investigations involving alleged misconduct.
B. Types of Cases
OI investigative workload includes the following major cat-          Miscellaneous
egories:                                                             OI investigates miscellaneous administrative allegations
                                                                     and other types of investigations that do not fall into one
Workers’ Compensation Fraud                                          of the categories above. Examples of such investigations
OI investigates GPO employees who allegedly submit                   include theft of Government property, illegal hacking, or
false claims or make false statements to receive workers’            requests for investigations by other legislative agencies. OI
compensation benefits. OI is working on three investiga-             has five open cases involving miscellaneous matters.
tions involving possible fraudulent claims for workers’
compensation.                                                        C. Status of Action on Referrals
                                                                     OI investigative efforts result in both external and internal
Procurement Fraud                                                    referrals for action.
OI investigates allegations involving GPO contract service
providers defrauding the Government in connection with               External
procurement of goods and services. Violations generally              OI referred eight investigative matters to the Department


                                           Office of Inspector General
                                                                25
of Justice for prosecution. Three GPO employees were              period, an appeal to that decision was decided in the
indicted for the physical abuse of another employee.              Government’s favor.
Prosecutorial action is pending in one civil and one other
criminal matter.                                                  Employee Misconduct
                                                                  An OI investigation involving allegations of the use of
Internal                                                          Government computers to view and download pornogra-
Two investigative matters were referred to management             phy was referred to management for action. During this
for action and are pending.                                       reporting period, the employee was terminated from GPO
                                                                  employment for violations of Agency regulations on the
D. Investigative Accomplishments                                  use of Government computers and the Internet.
Workers’ Compensation Fraud
                                                                  Procurement Fraud
An OI investigation resulted in a Department of Labor             OI investigated a GPO contractor for submitting false
determination that an Office of Workers’ Compensation             claims. The matter has been referred to the Office of
Programs (OWCP) claimant—a GPO employee—made                      General Counsel for possible suspension/debarment.
false statements from 2003 to 2007, claiming no earn-                  Another OI investigation, worked jointly with sev-
ings. The OI investigation revealed the employee owned            eral other law enforcement entities, has revealed fraud-
rental property and that since 1998 had been acting as            ulent purchase card transactions. This matter has been
property manager, locating renters, collecting rents, and         accepted for prosecution consideration and the investi-
completing small repairs. A forfeiture of $226,821.74 was         gation is ongoing.
assessed, and the individual taken off OWCP rolls. A cost              Several other significant allegations concerning pos-
savings to the Government of $42,000 per year will also           sible procurement fraud were also received by OI. Those
be realized ($420,000 in actuary amount over 10 years).           investigations are ongoing and will soon be referred to the
     In addition, another OI investigation resulted in a          Department of Justice for prosecution consideration.
Department of Labor determination that another GPO
employee was overpaid $17,823 in workers’ compensa-               Miscellaneous
tion benefits.                                                          OI assisted the Library of Congress OI in a criminal
     OI’s continued proactive, investigative approach and         investigation. In addition, at the request of another legisla-
its working relationship with the GPO Health Unit and             tive agency, OI continues to investigate a criminal matter
the Office of Workers’ Compensation has also resulted in          accepted by the Department of Justice’s Office of Public
keeping Agency Sick Injured Administrative costs under            Integrity for prosecution consideration.
$20,000 per month.
     A previous reporting period investigation of a               E. Work-In-Progress
GPO Central Office employee of alleged workers’ com-              Other significant OI matters are pending as of the end
pensation fraud resulted in forfeiture of $34,623.00 of           of this reporting period. Disposition and results of those
the employee’s compensation. During this reporting                investigations will be provided in future reports.




                                      Semiannual Report to Congress
                                                             26
APPENDIX A: GLOSSARY AND ACRONYMS

Glossary and Acronyms                                            Management Decision - An agreement between the IG and
                                                                 management on the actions taken or to be taken to resolve a
Glossary                                                         recommendation. The agreement may include an agreed-
                                                                 upon dollar amount affecting the recommendation and an
Allowable Cost - A cost necessary and reasonable for             estimated completion date unless all corrective action(s) is
the proper and efficient administration of a program             completed by the time agreement is reached.
or activity.
                                                                 Material Weakness - A significant deficiency, or combi-
Change in Management Decision - An approved change               nation of significant deficiencies, that results in more than
in the originally agreed-upon corrective action necessary        a remote likelihood that a material misstatement of the
to resolve an IG recommendation.                                 financial statements will not be prevented or detected.

Disallowed Cost - A questionable cost arising from an IG         Questioned Cost - A cost the IG questions because of an
audit or inspection that management decides should not           alleged violation of a law, regulation, contract, cooperative
be charged to the Government.                                    agreement, or other document governing the expenditure
                                                                 of funds; such cost is not supported by adequate docu-
Disposition - An action that occurs from management’s            mentation; or the expenditure of funds for the intended
full implementation of the agreed-upon corrective action         purposes was determined by the IG to be unnecessary or
and identification of monetary benefits achieved (subject        unreasonable.
to IG review and approval).
                                                                 Recommendation - Actions needed to correct or elimi-
Final Management Decision - A decision rendered                  nate recurrence of the cause(s) of the finding(s) identified
by the GPO Resolution Official when the IG and the               by the IG to take advantage of an opportunity.
responsible GPO manager are unable to agree on resolv-
ing a recommendation.                                            Resolution - An agreement reached between the IG and
                                                                 management on the corrective action(s) or upon render-
Finding - Statement of problem identified during an              ing a final management decision by the GPO Resolution
audit or inspection typically having a condition, cause,         Official.
and effect.
                                                                 Resolution Official - The GPO Resolution Official is the
Follow-up - The process that ensures prompt and respon-          Deputy Public Printer.
sive action once resolution is reached on an IG recom-
mendation.                                                       Resolved Audit/Inspection - A report containing recom-
                                                                 mendations that have all been resolved without exception,
Funds Put To Better Use - An IG recommendation that              but have not yet been implemented.
funds could be used more efficiently if management took
actions to implement and complete the audit or inspec-           Unsupported Costs - Questioned costs not supported by
tion recommendation.                                             adequate documentation.




                                     Semiannual Report to Congress
                                                            28
Abbreviations and Acronyms

AICPA	      American Institute of Certified Public        GPO	       U.S. Government Printing Office
            Accountants                                   GPRA	      Government Performance and Results Act
BoA	        Bank of America                               HSPD-12	   Homeland Security Presidential
CA	         Certification Authority                                  Directive-12
CCIG	       Council of Counsels to the Inspector          IG 	       Inspector General
            General                                       IG Act	    Inspector General Act of 1978
CFO	        Chief Financial Officer                       IPA	       Independent Public Accountant
CIO	        Chief Information Officer                     IPv4	      Internet Protocol version 4
COOP	       Continuity of Operations                      IPv6	      Internet Protocol version 6
COTR	       Contracting Officer’s Technical               IT	        Information Technology
            Representative
                                                          IT&S	      Information Technology and Systems
DHS/CPB	    Department of Homeland Security’s
            Customs and Border Patrol                     IV&V	      Independent Verification and Validation

DMZ	        Demilitarized Zone                            MIR	       Management Implication Report

ECIE	       Executive Council on Integrity                NTS	       National Travel Services, Inc.
            and Efficiency                                OALC	      Office of Administrative/Legal Counsel
FBCA	       Federal Bridge Certification Authority        OAI	       Office of Audits and Inspections
FDLP	       Federal Depository Library Program            OEP	       Occupant Emergency Plan
FDsys	      Future Digital System                         OI	        Office of Investigations
EEOC	       Equal Employment Opportunity                  OIG	       Office of Inspector General
            Commission
                                                          OWCP	      Office of Workers’ Compensation
MD-715	     EEOC Management Directive 715                            Programs
FIPS-201	   Federal Information Processing                PCIE	      President’s Council on Integrity and
            Standard Publication 201                                 Efficiency
FISMA	      Federal Information Security                  PKI	       Public Key Infrastructure
            Management Act
                                                          PPPS	      Passport Printing and Production
FPS	        Federal Protective Service                               System
FY	         Fiscal Year                                   SAS	       Statement on Auditing Standards
GAGAS	      Generally Accepted Government                 SID	       Security and Intelligent Documents
            Auditing Standards
                                                          SLS	       Senior Level Service
                                                          TTP	       Trusted Traveler Program




                                      Office of Inspector General
                                                     29
APPENDIX B: INSPECTOR GENERAL ACT REPORTING REQUIREMENTS

Inspector General                Requirement Definition                   Cross-Reference
Act Citation                                                              Page Number(s)
 Section 4(a)(2)                  Review of Legislation                   5
                                  and Regulations

 Section 5(a)(1)                  Significant Problems, Abuses,           7–11
                                  and Deficiencies                        13–22

 Section 5(a)(2)                  Recommendations for                     13–22
                                  Corrective Actions                      25–26

 Section 5(a)(3)                  Prior Audit Recommendations Not         19–22
                                  Yet Implemented

 Section 5(a)(4)                  Matters Referred to                     25–26
                                  Prosecutorial Authorities

 Section 5(a)(5)                  Summary of Refusals to                  n/a
                                  Provide Information

 Sections 5(a)(6) and 5(a)(7)     OIG Audit and Inspection Reports        13–19
                                  Issued (includes total dollar values
                                  of Questioned Costs, Unsupported
                                  Costs, and Recommendations that
                                  Funds Be Put To Better Use)

 Section 5(a)(8)                  Statistical table showing the total     31
                                  number of audit reports and the total
                                  dollar value of questioned costs

 Section 5(a)(9)                  Statistical table showing the total     32
                                  number of audit reports and the
                                  dollar value of recommendations
                                  that funds be put to better use

 Section 5(a)(10)                 Summary of prior Audit and              n/a
                                  Inspection Reports issued for
                                  which no management decision
                                  has been made

 Section 5(a)(11)                 Description and explanation             n/a
                                  of significant revised
                                  management decision

 Section 5(a)(12)                 Significant management                  n/a
                                  decision with which the IG
                                  is in disagreement



                                Semiannual Report to Congress
                                                    30
APPENDIX C: STATISTICAL REPORTS

Table C-1: Audit Reports With Questioned and Unsupported Costs

                                                                                         	
                                                           Questioned     Unsupported
 Description                                                                             Total
                                                           Costs          Costs



 Reports for which no management decision made by
 beginning of reporting period
                                                           	        $0    	        $0    	        $0




 Reports issued during reporting period                    	        $0    	        $0    	        $0




 Subtotals                                                 	        $0    	        $0    	        $0




 Reports for which a management
 decision made during reporting period

 1. Dollar value of disallowed costs                       	   $347,247   	   $240,687   	   $587,394
 2. Dollar value of allowed costs                          	         $0   	         $0   	         $0




 Reports for which no management decision
 made by end of reporting period                           	        $0    	        $0    	        $0




 Reports for which no management decision
 made within 6 months of issuance                          	        $0    	        $0    	        $0




                                          Office of Inspector General
                                                      31
Table C-2: Audit Reports With Recommendations That Funds Be Put to Better Use


                                                                              Funds Put To
 Description                                              Number of Reports
                                                                              Better Use


 Reports for which no management decision made by
                                                          	       0           	       $0
 beginning of reporting period




 Reports issued during the reporting period               	       1           	    $8,495




 Reports for which a management decision made
 during reporting period                                  	

 ■    ollar value of recommendations agreed to by
     D                                                    	       0	          	    $8,495
     management
 ■  Dollar value of recommendations not agreed to        	       0           	       $0
     by management




 Reports for which no management decision made
                                                          	       0           	       $0
 by the end of the reporting period




 Report for which no management decision made
                                                          	       0           	       $0
 within 6 months of issuance




                                       Semiannual Report to Congress
                                                     32
Table C-3: List of Audit and Inspection Reports Issued During Reporting Period


 Audit Reports                                                                           Funds Put To Better Use



 Report on Protection of E-Passport Production System
 (Assessment Report 08-07, issued May 30, 2008)                                          	      $0




 Report on Federal Digital System (FDsys) Independent Verification and Validation
 (IV&V) – Third Quarter Observations and Recommendations
                                                                                         	      $0
 (Assessment Report 08-08, issued August 8, 2008)




 Report on Follow-up Audit of Centrally Charged Travel Expenditures
 (Audit Report 08-09, issued August 8, 2008)                                             	      $8,495




 Report on Diversity Management Programs at the Government Printing Office
 (Audit Report 08-10, issued September 11, 2008)                                         	      $0




 Report on WebTrust Assessment of GPO’s Certification Authority – Attestation Report
 (Assessment Report 08-11, issued September 18, 2008)                                    	      $0




 Report on Assessment of GPO’s Transition Planning for Internet Protocol Version 6
                                                                                         	      $0
 (Assessment Report 08-12, issued September 30, 2008)




 Report on Oracle E-Business Suite Release 2 Independent Verification and Validation –
 Program Management                                                                      	      $0
 (Assessment Report 08-13, issued September 30, 2008)




 Total                                                                                   	      $8,495




                                            Office of Inspector General
                                                               33
Table C-4: Investigations Case Summary



 Total New Hotline/Other Complaints Received during Reporting Period      	   50




 No Formal Investigative Action Required                                  	   37




 Cases Opened by OI during Reporting Period                               	   18




 Cases Open at Beginning of Reporting Period                              	   24




 Cases Closed during Reporting Period                                     	   20




 Cases Open at End of Reporting Period	                                   	   22




 ■    Cases Referred to GPO Management                                    	    2




 ■    Cases Referred to Other Agencies                                    	    0




 ■    Cases Referred to OAI                                               	    0




                                          Semiannual Report to Congress
                                                       34
Current Case Openings by Allegation                                          22



■ Contract and Procurement Fraud                                            	7          	 32%



■    Employee Misconduct                                                     	7          	 32%



■    Workers’ Compensation Fraud                                             	3          	 13%



■    Miscellaneous                                                           	5          	 23%




                                                                    ■ Contract and Procurement Fraud

                                                                    ■ Employee Misconduct

                                                                    ■ Workers’ Compensation Fraud

                                                                    ■ Miscellaneous




                                      Office of Inspector General
                                                  35
Table C-5: Investigations Productivity Summary


	       Arrests	                                                                0

	       Total Cases Presented to Prosecuting Authorities	                       9

	       Criminal 	                                                              8

	       Criminal Declinations	                                                  4

	       Indictments	                                                            3

	       Convictions	                                                            0

	       Guilty Pleas	                                                           0

	       Probation (days)	                                                       0

	       Jail Time (days)	                                                       0

	       Restitutions	                                                          $0

	       Civil	                                                                  1

	       Civil Declinations	                                                     1

	       Amounts Recovered Through
    	   Investigative Efforts	                                            $245,289

	       Total Agency Cost Savings Through
	       Investigative Efforts	                                            $420,000

	       Total Administrative Referrals	                                         0

	       Contractor Debarments	                                                  0

	       Contractor Suspensions	                                                 0

	       Contractor Other Actions	                                               0

	       Employee Suspensions	                                                   3

	       Employee Terminations	                                                  1

	       Employee Warned/Other Actions	                                          0

	       Other Law Enforcement Agency Referrals	                                 0




                                          Semiannual Report to Congress
                                                            36
Office of Inspector General

732 North Capitol Street, NW
Washington, D.C. 20401

202.512.0039
inspectorgeneral@gpo.gov
www.gpo.gov/oig

OIG Hotline 1.800.743.7574
